Record Press Inc., 229 West 36th Street, New York, N.Y. 10018•
Tel: (212) 619-4949• Fax No. (212) 608-3141

79858
STATE OF NEW YORK,
SS:

AFFIDAVIT OF SERVICE

COUNTY OF NEW YORK
Howard Daniels being duly sworn, deposes and says that deponent is not party to the action, and is
over 18 years of age.
That on the 12th day of August 2019 deponent served 3 copies of the within
MOTION TO DISMISS

upon the attorneys at the addresses below, and by the following method:
BY FEDERAL EXPRESS NEXT BUSINESS DAY DELIVERY

Benjamin Michael Flowers
Ohio Attorney General Dave Yost
30 E. Broad St.
Columbus, OH 43215
614-466-8980
benjamin.flowers@ohioattorneygeneral.gov

Efrem M. Braden
Baker &Hostetler LLP
1050 Connecticut Avenue NW
Suite 1100
Washington, DC 20036
202-861-1 500
mbraden@bakerlaw.com

Appellant-Defendants' Counsel
Appellant-/ntervenors •Counsel

I, Howard Daniels, declare under penalty of perjury under the laws of the United States of America
that the foregoing is true and correct, executed on August 12, 2019, pursuant to Supreme

Court Rule 29.5[c). All parties required to be s e ~ been servedi[)

d~~
Howard Daniels

_

~-

Sworn to me this
August 12, 2019
NADIA A. OSWALD HAMID
Notary Public, State of New York
No. 01OS6101 366
Qualified in Kings County

~TWI

Q

Case Name: Chabot v. APRI

Docket/Case No. 19-110

